        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Evaluation Report
The Department's Unclassified
Cyber Security Program – 2010




DOE/IG-0843                      October 2010
                                  Department of Energy
                                    Washington, DC 20585
                                         October 22, 2010



MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Department's
                         Unclassified Cyber Security Program - 2010"
BACKGROUND

Federal information systems are routinely confronted with increasingly sustained cyber attacks –
many of which involve targeted and serious threats – executed with varying levels of technical
sophistication. The number of incidents reported by Federal agencies to the Department of
Homeland Security has, in fact, increased by over 400 percent in the past 4 years. To help
combat the escalating number and complexity of cyber security threats, the Department of
Energy expended significant funds in Fiscal Year (FY) 2010 on cyber security measures
designed to protect systems and their information. The Department's systems support various
program operations, including its energy, national security, scientific discovery and innovation,
and environmental remediation portfolios.

The Federal Information Security Management Act of 2002 (FISMA) provides direction on the
development, implementation and management of an agency-wide information security program
to provide protection commensurate with risk for Federal information and systems, including
those managed by another agency or contractors. In accordance with FISMA, the Office of
Inspector General conducted its annual independent evaluation to determine whether the
Department had adopted a risk-based cyber security program that adequately secured its
unclassified information and systems. The attached report presents the results of our evaluation
for FY 2010.

RESULTS OF EVALUATION

Our evaluation disclosed that the Department had taken steps to enhance its unclassified cyber
security program, including resolving five of seven cyber security weaknesses identified during
our FY 2009 evaluation. In addition, the Department had initiated implementation of an
automated tool to aid in security and performance reporting. The Department also continued to
maintain its defense-in-depth strategy to protect its networks against intruders and other external
threats.

While these were positive accomplishments, additional action is needed to further strengthen the
Department's unclassified cyber security program and help mitigate threats to its information and
systems. In this context, our review revealed weaknesses in the areas of access controls,
configuration and vulnerability management, web application integrity, and security planning
and testing. Specifically:
                                                2


       At five locations, we noted vulnerabilities related to access controls such as weak or
       blank system administrator passwords and a lack of periodic account reviews;

       Weaknesses existed in the area of system configuration and vulnerability management at
       12 locations. These issues included outdated security patches on desktops and network
       servers, as well as the use of default or weak security settings – situations that could
       allow unauthorized access to system resources;

       Six locations had weaknesses in web applications, vulnerabilities which could be
       exploited to launch attacks against users or host systems; and,

       A Headquarters program office placed a system into operation prior to completing
       required system security plans and related testing of controls.

The weaknesses identified occurred, at least in part, because Departmental elements had not
always ensured that cyber security requirements were effectively implemented. In addition, the
Department (including the National Nuclear Security Administration) had not adequately
monitored cyber security performance. Plans of action and milestones were also not always used
effectively to ensure that known security vulnerabilities were properly remediated. Without
improvements to its cyber security program, Departmental systems and the information they
contain are exposed to a higher than necessary level of risk. While all identified vulnerabilities
were discussed with cognizant officials to determine their potential effect, the scope of our work
did not include a determination of whether vulnerabilities found were actually exploited and used
to circumvent existing controls.

In light of the growing number of cyber security threats and the noted vulnerabilities, we made
several recommendations designed to help the Department strengthen its unclassified cyber
security program. When fully implemented, these should help the Department adequately
protect its systems and data from the threat of compromise, loss, or inappropriate modification
and non-availability.

Due to security considerations, information on specific vulnerabilities and locations has been
omitted from this report. Throughout the evaluation, however, we closely coordinated all
findings with applicable Federal and contractor officials. During these interactions, site and
program officials were provided with detailed information regarding respective vulnerabilities
identified. We also obtained information regarding the applicability of our findings to each
respective risk environment. In many instances, corrective actions to address these findings were
initiated immediately.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective action
would be taken. However, management expressed concern with our characterization of the
scope, severity and cause of the issues discussed within the report. Management's comments and
our response are more thoroughly discussed in the body of the report and are included in
Appendix 3.
                                             3


Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Acting Under Secretary of Energy
      Under Secretary for Science
      Chief Health, Safety and Security Officer
      Acting Chief Information Officer
      Acting Chief Information Officer, NNSA
      Chief of Staff
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM – 2010

TABLE OF
CONTENTS


Department's Unclassified Cyber Security Program

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................9


Appendices

1.    Objective, Scope, and Methodology ..........................................................................13

2.    Related Reports ..........................................................................................................15

3.    Management Comments .............................................................................................18
The Department's Unclassified Cyber Security Program – 2010

Program                 The Department of Energy (Department) had taken positive
Improvements            steps to address previously identified cyber security
                        weaknesses and enhance its unclassified cyber security
                        program. We noted that corrective actions had been taken to
                        resolve five of seven weaknesses identified during our
                        evaluation of The Department's Unclassified Cyber Security
                        Program - 2009 (DOE/IG-0828, October 2009). Specifically:

                               The National Nuclear Security Administration (NNSA)
                               had taken action to address previously identified
                               weaknesses. For instance, certain sites implemented
                               plans designed to help resolve remote system
                               management issues. In addition, two sites established
                               procedures and practices for minimizing risks from
                               configuration management vulnerabilities;

                               The Department established a new Computer Security
                               Governance Council at the Under Secretary level to
                               lead the Department's cyber security reform initiatives.
                               The Council is supported by a new Computer Security
                               Advisory Group, which is composed of senior
                               information technology (IT) and cyber security
                               representatives from each of the Department's major
                               components;

                               In August 2010, the Department began the formal
                               vetting process for Draft Order 205.1B – Department of
                               Energy Cyber Security Program – to update, define,
                               and establish its new cyber security management
                               structure and realign the cyber security program with a
                               more risk-based approach; and,

                               The Department initiated actions to transform its risk
                               management framework by implementing the
                               TrustedAgent™ system to automate and standardize
                               reporting requirements and deploy continuous
                               monitoring tools in support of the Federal Information
                               Security Management Act of 2002 (FISMA).

Security Controls and   The Department had made progress in addressing technical
Risk Management         control weaknesses identified during our previous evaluation.
                        However, during our current review, we identified various
                        issues at sites managed by the NNSA, Under Secretary for
                        Science, and Under Secretary of Energy that involved the
                        implementation of technical controls. Specifically, we



Page 1                                                              Details of Finding
         identified problems in the areas of access controls,
         configuration and vulnerability management, and integrity of
         web applications at 15 of 17 locations. In a number of
         instances, site officials took action to correct certain
         weaknesses shortly after we identified them. However, as
         detailed in the remainder of our report, various weaknesses
         remained. Furthermore, our review disclosed risk management
         weaknesses related to security planning and testing of certain
         information systems.

                                Access Controls

         Despite efforts to correct previously identified problems, the
         Department continued to experience access management
         weaknesses. Access controls consist of both physical and
         logical measures designed to protect information resources
         from unauthorized modification, loss, or disclosure. To ensure
         that only authorized individuals can gain access to networks or
         systems, controls of this type must be strong and functional.
         Although action had been taken to address one of two access
         control issues identified last year, one remained unresolved.
         Furthermore, eight new problems related to access controls
         were revealed by this year's testing. In particular:

                One site had access control weaknesses that affected
                logical, physical and personnel security. Specifically,
                the site had not developed and/or implemented
                adequate policies and procedures to ensure controls
                over these access categories were in place. For
                instance, we noted that formal processes did not always
                address essential elements such as safeguards over
                granting privileged users logical and physical access to
                IT resources, or ensuring that user access was removed
                upon termination of employment;

                Two sites had network systems and devices with
                administrator level accounts that were configured with
                default, blank or easily guessed passwords. While
                deficiencies at these sites were corrected immediately
                after we pointed them out, weaknesses in the process
                for identifying such accounts could have permitted an
                unauthorized user to access multiple systems;

                Three locations had not always effectively conducted
                periodic reviews of user accounts and related access
                privileges. In one case, the site had not corrected issues

Page 2                                                Details of Finding
                identified during our previous evaluation and had
                granted incompatible access levels to system developers
                and a system administrator. At two other sites, officials
                had not always performed effective periodic
                management reviews of user accounts and related
                access privileges. Although one site performed bi-
                annual reviews, these were not conducted in a timely
                manner and failed to identify inappropriate access
                privileges for two users. Management review of user
                accounts is essential to determining whether users who
                no longer have a valid need to access system resources
                have their privileges removed in a timely manner;

                One site had not adhered to the requirement to change
                passwords every 180 days in accordance with National
                Institute of Standards and Technology (NIST),
                Department, and site-level password standards and
                directives. Specifically, a password for its human
                resources system's default privileged account had not
                been changed within the established timeframe nor did
                the site's financial system enforce password changes as
                required; and,

                One site maintained a File Transfer Protocol server that
                accepted anonymous connections and could have
                allowed any user to gain access to files, including those
                containing valid usernames and passwords for other
                systems.

                 Configuration and Vulnerability Management

         Although corrective actions had been taken to resolve
         configuration management vulnerabilities identified in our
         Fiscal Year (FY) 2009 evaluation, weaknesses in these areas
         persisted. In particular, problems discovered during our
         current review were attributed to inadequate configuration and
         vulnerability management controls. Performance testing
         revealed that all 17 locations reviewed had varying degrees of
         vulnerable applications on desktop and network systems and
         devices. Specifically, we found that:

                Twelve locations had desktop systems with known
                vulnerabilities that had not been corrected by installing
                current security patches. Based on a NIST assessment
                tool, the missing security patches were classified as
                "high risk" and we noted that they had been available

Page 3                                                Details of Finding
                for at least 3 months prior to our testing. The failure to
                apply these patches could have permitted unauthorized
                access to system administrator functions;

                We also found that four locations failed to properly
                patch network server systems and devices. As with the
                desktop systems previously discussed, security patches
                for known vulnerabilities had been released more than
                3 months prior to our testing. Vulnerable applications
                included database servers, web servers, and various
                other network services; and,

                Two sites had instances of network devices with default
                or weak settings. These weaknesses could have
                allowed unauthorized users to modify configuration
                settings or anonymously read shared directories and
                files, including files containing employees' personally
                identifiable information and login credentials for other
                systems. As a result, it was possible for an
                authenticated user to access sensitive data stored on the
                server.

         Some of the identified vulnerabilities affected systems and
         other servers hosting financial and non-financial systems,
         problems that could have permitted individuals to gain
         administrator level access. At certain sites, the risk associated
         with these weaknesses was mitigated, in part, by the existence
         of network-based compensating controls that help to ensure
         that malicious attacks with known exploit signatures would not
         be delivered to a vulnerable system. However, exploit of these
         vulnerabilities by a malicious user could have resulted in an
         immediate or indirect compromise of business information or
         unauthorized access to key application functionality and data,
         as well as loss or disruption of critical operations.

                          Integrity of Web Applications

         The Department experienced system and data integrity
         deficiencies on several web applications used to support
         activities such as human resources, property management and
         medical applications. Specifically, our performance testing
         identified at least 10 web-based applications at 6 locations that
         did not perform validation procedures. System and data
         integrity controls ensure that changes made to information and
         programs are allowed only in a specified and authorized
         manner and that the system performs intended functions in an

Page 4                                                 Details of Finding
         unimpaired manner free from deliberate or inadvertent
         unauthorized manipulation of the system, such as through
         software flaws and malicious code. However, we found that:

                Five locations operated applications that accepted
                malicious input data that could have then been used to
                launch attacks against legitimate application users or
                result in unauthorized access to the application; and,

                One site maintained a medical information application
                that did not always perform validation procedures to
                determine whether data parameters had been modified
                by a user. By modifying parameters, an authenticated
                user could view or modify another user's privacy data.
                Following our review, site officials commented that
                they had taken corrective action to address the
                identified weaknesses.

                         Security Planning and Testing

         Our review also disclosed risk management weaknesses related
         to security planning and testing of certain systems. This
         process is essential for ensuring a complete and effective risk
         management strategy for protecting IT systems and the data
         they contain. Specifically, during our reviews of two systems
         operated by the Department's Office of Energy Efficiency and
         Renewable Energy, we identified weaknesses related to
         incomplete security control planning and testing that could
         have aided in managing the risks associated with deployment
         and operation of the systems. Security planning and testing are
         critical activities that support the risk management process and
         are integral to the agency's information security program. In
         particular:

                Our report on Management Controls over the
                Development and Implementation of the Office of
                Energy Efficiency and Renewable Energy's
                Performance and Accountability for Grants in Energy
                (PAGE) System (OAS-RA-10-14, July 2010) revealed
                that the system was placed into operation before
                required cyber security planning and testing was
                completed. The lack of planning and testing placed the
                PAGE system and the network on which it resided at
                increased risk that the confidentiality, integrity and
                availability of the Department's information systems
                and data could be compromised; and,

Page 5                                               Details of Finding
                                  Our audit of Management Controls over the
                                  Department's WinSAGA System for Energy Grants
                                  Management Under the Recovery Act (OAS-RA-10-05,
                                  March 2010) identified that the system's security
                                  planning documentation and control testing was
                                  incomplete and inconsistent. For example, the
                                  information contained in the system security plan was
                                  not representative of the entire computing environment.
                                  In addition, a significant portion of the required security
                                  controls had been excluded from testing. These
                                  weaknesses exposed the system and data to a higher
                                  than necessary level of risk of compromise, loss,
                                  modification, and non-availability.

Implementation of      The weaknesses identified occurred, at least in part, because
Requirements and       Departmental elements had not always ensured that cyber
Performance Monitoring security requirements were effectively implemented. In
                       addition, Department programs and the NNSA had not
                       adequately conducted cyber security performance monitoring
                       activities. Plans of action and milestones (POA&Ms) were
                       also not used effectively to ensure that known security
                       vulnerabilities were remediated.

                                              Procedures and Processes

                           Programs and sites reviewed had not always implemented
                           policies and procedures designed to ensure that minimum cyber
                           security standards were met. For instance, we noted that site-
                           level policies and procedures were not fully effective in areas
                           such as configuration and vulnerability management. Even
                           when procedures were established and being used, sites had not
                           always verified, through testing or by other means, that the
                           procedures were effective. Furthermore, access control
                           policies and procedures were not always developed and/or
                           implemented. At one site, we noted that formal policies and
                           procedures did not exist for various access control activities,
                           including authorizing, reviewing and terminating access to
                           certain systems or conducting periodic reviews of user access
                           accounts. In addition, we found that web application
                           functionality at certain locations was developed without an
                           adequate process in place to ensure effective controls were
                           implemented. This weakness could have allowed individuals
                           to launch attacks against legitimate application users or result
                           in unauthorized access to the application.




Page 6                                                                  Details of Finding
                             Performance Monitoring

         Consistent with our findings of previous years, Department and
         NNSA management had not effectively conducted monitoring
         and review activities essential for evaluating cyber security
         performance. For example, we noted that NNSA Headquarters
         officials still had not fully instituted a process for evaluating
         the activities of Federal site offices and associated field sites.
         In addition, we identified problems with the Department's use
         of POA&Ms as a management tool for tracking, reporting and
         correcting known security vulnerabilities.

         During our review, we noted that NNSA management
         instituted a moratorium on internal reviews, including cyber
         security assessments, for a large portion of the fiscal year. As a
         result, only one unclassified assessment had been completed by
         Headquarters officials. The lack of assessments was of
         particular concern because the Department and NNSA are
         working to revise their oversight approach to rely largely on
         the contractor assurance system model, which will define and
         provide a mechanism by which management can assess
         contractor performance within an established risk management
         framework. In our judgment, ensuring that an adequate
         oversight framework is in place is essential if the contractor
         assurance model is to work in a credible and effective manner.

         Consistent with prior reviews, we continued to identify
         problems with the Department's use of POA&Ms as a
         management tool to report, prioritize and track cyber security
         weaknesses through remediation. Specifically, we found
         instances where:

                POA&Ms did not contain all identified cyber security
                weaknesses for unclassified information systems. For
                example, although corrective actions had been initiated
                or completed, we noted that four cyber security
                weaknesses found during our FY 2009 evaluation had
                not been included in the Department's POA&M. In
                one instance, a site that was issued a finding for the
                second consecutive year regarding weak password
                management controls still had not included corrective
                actions in the POA&M;

                Our evaluation identified 113 (12 percent) open
                milestones captured in the POA&M that were beyond


Page 7                                                 Details of Finding
                            their projected remediation date. In a few instances,
                            we noted that open milestones were at least one year
                            beyond their estimated remediation date; and,

                           We also found that 71 (8 percent) open milestones had
                           no associated funding included in the POA&M. A lack
                           of estimates related to the cost of remediating
                           weaknesses limits the ability of responsible officials to
                           effectively prioritize corrective actions.

                    As pointed out by NIST and as reiterated by the Office of
                    Management and Budget (OMB), POA&Ms are an important
                    means of identifying and managing an entity's progress
                    towards eliminating gaps between required security controls
                    and those that are actually in place.

Information and     Without improvements to its cyber security program, such as
Systems Remain at   adherence to required risk management practices and the
Risk                adoption of processes to ensure that security controls are fully
                    implemented, Department systems and the information they
                    contain continue to be exposed to a higher than necessary level
                    of risk of compromise, loss, modification and non-availability.

                    Our testing at 17 locations identified many vulnerabilities –
                    each of which were reviewed for severity and discussed with
                    site officials. As a result, many of the weaknesses identified
                    were not included in this report because we concluded that
                    existing risk assessments or compensating controls were
                    adequate. Although we found that many sites had implemented
                    compensating controls, such as anti-malware applications, to
                    mitigate the risk associated with certain vulnerabilities, an
                    attacker could potentially execute attacks against certain
                    vulnerable systems, key applications, and user desktops by
                    using custom attacks with no known signatures. Exploitation
                    by unauthorized or malicious individuals could also lead to
                    disruption of operations, modification or destruction of
                    sensitive data or programs, or theft or improper disclosure of
                    confidential business information.

                    As reported by the Department of Homeland Security, Federal
                    information systems continue to be confronted with
                    increasingly pervasive and sustained cyber attacks that have
                    evolved into more targeted and serious threats with varying
                    levels of access and technical sophistication. Further, without
                    improvements in the Department's POA&M process,
                    management may be unaware of, or unable to effectively


Page 8                                                           Details of Finding
                   prioritize the remediation of existing vulnerabilities and
                   security weaknesses. This lack of awareness could potentially
                   lead to insufficient resources being allocated to mitigate the
                   system and security vulnerabilities.

RECOMMENDATIONS    To improve the effectiveness of the Department's unclassified
                   cyber security program and to remedy the weaknesses
                   identified in this report, we recommend that the Administrator,
                   National Nuclear Security Administration, Under Secretary of
                   Energy, and Under Secretary for Science, in coordination with
                   the Department and NNSA Chief Information Officers, where
                   appropriate:

                      1. Correct, through the implementation of appropriate
                         controls, the weaknesses identified within this report;

                      2. Ensure that procedures and processes are developed, as
                         needed, and are effectively implemented to adequately
                         secure systems and applications;

                      3. Implement an adequate compliance monitoring
                         program, such as the use of periodic evaluations by
                         Headquarters management, to ensure the effectiveness
                         of cyber security program performance; and,

                      4. Ensure that POA&Ms are fully developed and utilized
                         to track, prioritize and enable remediation of identified
                         cyber security weaknesses.

MANAGEMENT         Department and NNSA management concurred with the
REACTION AND       report's recommendations and stated that it had initiated
AUDITOR COMMENTS   corrective actions to address each of the recommendations
                   included in our report. For instance, management stated that
                   the Department's Cyber Security Governance Council recently
                   approved a recommendation to implement a mission centric,
                   risk-based approach in the management of the Department's
                   cyber security program. In addition, NNSA management
                   stated that it implements a flexible, comprehensive, and risk-
                   based cyber security program. NNSA also noted that all
                   systems were protected by distinctive, layered, and defense-in-
                   depth approaches and that substantive risks to systems at one
                   site almost certainly present no or extremely limited risks to
                   systems at other sites.

                   Although management agreed with our recommendations, it
                   expressed concern with our characterization of the scope,
                   severity and cause of the issues discussed within the report.


Page 9                                      Recommendations and Comments
          We have summarized management's comments and provided
          our response for each. Management's comments are included
          in their entirety in Appendix 3.

          Department management commented that data gathered from
          vulnerability scanning was not itself sufficient for making
          management decisions, but noted that it leveraged vulnerability
          scan data and other inputs, along with risk assessments, when
          making decisions. Management also noted that findings
          resulting from vulnerability scanning should not be equated
          with risk. We agree that vulnerability scanning is only one part
          of an effective defense-in-depth security strategy. However,
          the weaknesses included in our report were identified as "high-
          risk" vulnerabilities in accordance with the National
          Vulnerability Database sponsored by the Department of
          Homeland Security's National Cyber Security Division / US-
          CERT. In addition, we provided the results of our scans and
          consulted extensively with local site officials to confirm that
          these issues represented actual vulnerabilities and were worthy
          of correction. As such, the Department should utilize the
          results of our review to aid in developing and implementing an
          effective risk-management strategy that includes remediation
          of "high-risk" weaknesses.

          Department and NNSA management commented that finding a
          relatively small number of misconfigured devices at the sites
          reviewed did not inherently suggest widespread weaknesses of
          control. Management also stated that the weaknesses identified
          in our report did not account for compensating controls and
          may have been within the sites' acceptable risk. NNSA
          commented that, although the Office of Inspector General
          identified a small number of systems that were determined to
          be misconfigured, it was important to recognize that each site
          was operating within its risk acceptance model. We agree that
          the results of our vulnerability assessment cannot be projected
          across the Department and, as such, did not attempt to do so in
          our report. However, as noted in the report, our testwork
          revealed weaknesses that could, if exploited, have permitted a
          malicious user to compromise systems or data. In fact,
          contrary to management's assertions, we fully considered site-
          level risk assessments and compensating controls. As such,
          many of the vulnerabilities identified during our evaluation
          were not included in the report based on our discussions with
          site officials related to their acceptance of risk and related
          compensating controls.




Page 10                                                       Comments
          Department management commented that systems are
          protected by a defense-in-depth approach and noted that a
          technical misconfiguration should not be construed as
          representing substantial risk to the Department as a whole. We
          agree that vulnerabilities may represent differing levels of risk
          to various sites. In addition, because of the defense-in-depth
          approach implemented across the Department, we agree that a
          vulnerability identified at one site would not necessarily
          increase the risk to another site or the Department as a whole.
          However, the weaknesses included in our report were
          considered "high-risk" vulnerabilities that should be addressed
          locally to help reduce the threat of compromise to affected
          information systems and the data they contain.

          Management commented that the Department's operations are
          complex and managed by management and operating (M&O)
          contractors with unique operating relationships. As such,
          management believed that variation and normal error could be
          expected. While we agree, our review revealed that many of
          the weaknesses identified were the result of ineffective
          implementation of processes and procedures by M&O
          contractors at the field sites. As far as we could determine, the
          issues identified did not necessarily relate to the complexity of
          the relationship between M&O contractors and the Department.

          Department management commented that its goal was to
          improve the cyber security program and better protect the
          missions of the Department. We fully concur with this goal.
          To that end, we worked closely with officials at each of the
          sites we visited and provided them with detailed results of our
          vulnerability scanning. We also vetted each of the identified
          vulnerabilities extensively with site officials prior to including
          them in our report. Furthermore, information related to each of
          the weaknesses identified was provided to program officials at
          Headquarters throughout the course of the evaluation with the
          goal of helping them manage their respective cyber security
          programs.

          Department and NNSA management comments indicated that
          POA&M's do not need to have budget amounts associated with
          them because M&O contractors are responsible for allocating
          funding for cyber security and other priorities based on risk
          management principles. Management also noted that the
          Department does not expect local oversight to be responsible
          for finding each misconfiguration or error. We believe that the
          amount of funding required to remediate a weakness – which is



Page 11                                                        Comments
          a requirement of the OMB – can enable management to make
          better informed decisions related to addressing weaknesses.
          Furthermore, while we would not expect local oversight
          officials to identify every misconfiguration or error, the
          oversight process should include an aspect of ensuring that
          sites are following established policies and procedures.
          However, as noted in our report, we found that in many cases
          M&O contractors at the sites reviewed were not following
          existing procedures, factors which contributed to many of the
          issues identified.




Page 12                                                      Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy's (Department
              or DOE) unclassified cyber security program adequately
              protected its information and systems.

SCOPE         The evaluation was performed between February 2010 and
              September 2010, at numerous locations under the purview of
              the National Nuclear Security Administration (NNSA), Under
              Secretary of Energy, and Under Secretary for Science.
              Specifically, we performed an assessment of the Department's
              unclassified cyber security program. The evaluation included a
              limited review of general and application controls in areas such
              as entity-wide security planning and management, access
              controls, application software development and change
              controls, and service continuity. Our work did not include a
              determination of whether vulnerabilities found were actually
              exploited and used to circumvent existing controls. The
              Health, Safety and Security Office of Independent Oversight
              performed a separate evaluation of the Department's
              information security program for national security systems.

METHODOLOGY   To accomplish our objective, we:

                       Reviewed Federal statutes and Department directives
                       pertaining to information and cyber security such as
                       the Federal Information Security Management Act of
                       2002, Office of Management and Budget (OMB)
                       Circular A-130 (Appendix III), and DOE Order
                       205.1A, Department of Energy Cyber Security
                       Management;

                       Reviewed applicable standards and guidance issued
                       by OMB and the National Institute of Standards and
                       Technology (NIST) for the planning and management
                       of system and information security such as OMB
                       Memorandum 10-15, FY 2010 Reporting Instructions
                       for the Federal Information Security Management Act
                       and Agency Privacy Management; Federal
                       Information Processing Standards Publication 200,
                       Minimum Security Requirements for Federal
                       Information and Information Systems; and NIST
                       Special Publication 800-53, Recommended Security
                       Controls for Federal Information System;

                       Obtained and analyzed documentation from
                       Department programs and certain sites pertaining to
                       the planning, development, and management of cyber


Page 13                               Objective, Scope, and Methodology
Appendix 1 (continued)

                             security related functions such as program cyber
                             security plans, plans of action and milestones, and
                             budget information; and,

                             Held discussions with officials from the Department
                             and NNSA.

                    We conducted this evaluation in accordance with generally
                    accepted Government auditing standards. Those standards
                    require that we plan and perform the audit to obtain sufficient,
                    appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our audit objectives. We
                    believe that the evidence obtained provides a reasonable basis
                    for our findings and conclusions based on our audit objectives.
                    Accordingly, we assessed significant internal controls and the
                    Department's implementation of the Government Performance
                    and Results Act of 1993 and determined that it had established
                    performance measures for its information and cyber security
                    program. Because our evaluation was limited, it would not
                    have necessarily disclosed all internal control deficiencies that
                    may have existed at the time of our evaluation. We did not
                    solely rely on computer-processed data to satisfy our objective.
                    However, computer assisted audit tools were used to perform
                    probes of various networks and drives. We validated the
                    results of the scans by confirming the weaknesses disclosed
                    with responsible on-site personnel and performed other
                    procedures to satisfy ourselves as to the reliability and
                    competence of the data produced by the tests. In addition, we
                    confirmed the validity of other data, when appropriate, by
                    reviewing supporting source documents.

                    The Department and NNSA waived an exit conference.




Page 14                                     Objective, Scope, and Methodology
Appendix 2

                                 RELATED REPORTS

Office of Inspector General Reports

      Internal Controls over Computer Hard Drives at the Oak Ridge National Laboratory
      (INS-O-10-03, August 2010). The Oak Ridge National Laboratory's (ORNL)
      controls over the tracking of hard drives, which may contain sensitive unclassified
      information, were inadequate to prevent the unauthorized dissemination of sensitive
      unclassified information. Specifically, it had not implemented controls to encrypt, or
      track and control, hard drives that may contain sensitive unclassified information.

      Management Controls over the Development and Implementation of the Office of
      Energy Efficiency and Renewable Energy's Performance and Accountability for
      Grants in Energy (PAGE) System (OAS-RA-10-14, July 2010). The PAGE system
      was placed into operation before the required cyber security planning and testing was
      completed. This lack of planning and testing placed the PAGE system and the
      network on which it resided at increased risk that the confidentiality, integrity, and
      availability of the Department of Energy's (Department) information systems and data
      could be compromised.

      The Department's WinSAGA System for Energy Grants Management Under the
      Recovery Act (OAS-RA-10-05, March 2010). System security planning
      documentation and control testing was incomplete and inconsistent. For example, the
      information contained in the system security plan was not representative of the entire
      computing environment. Also, a significant portion of the required security controls
      were excluded from testing. This exposed the system and data to a higher than
      necessary level of risk of compromise, loss, modification, and non-availability.

      Management Challenges at the Department of Energy (DOE/IG-0832, December
      2009). Based on the work performed during Fiscal Year (FY) 2009 and other risk
      assessment tools, the Office of Inspector General identified six areas, including cyber
      security, remained as management challenges for FY 2010.

      The Office of Science's Management of Information Technology Resources (DOE/IG-
      0831, November 2009). For non-scientific computing environments, all seven of the
      field sites reviewed (two Federal, five contractor) had implemented security
      configurations that were less stringent than those included in the Federal Desktop
      Core Configuration (FDCC). This configuration was designed by the National
      Institute of Standards and Technology to ensure that Federal information systems had
      implemented a specific baseline of security controls, and its use was mandated by the
      Office of Management and Budget. Although Office of Science Headquarters had
      documented its rationale for deviating from the FDCC configuration, none of the
      seven field sites had identified and documented their deviations, as required.

      The Department's Unclassified Cyber Security Program - 2009 (DOE/IG-0828,
      October 2009). Opportunities were identified for improvements in areas such as
      security planning and testing, systems inventory, access controls, and configuration


Page 15                                                                    Related Reports
Appendix 2 (continued)

      management. In particular, a number of findings at sites managed by the National
      Nuclear Security Administration were issued. We also identified weaknesses across
      various Department program elements.

      Protection of the Department of Energy's Unclassified Sensitive Electronic
      Information (DOE/IG-0818, August 2009). Opportunities existed to strengthen the
      protection of all types of sensitive unclassified electronic information. For example,
      sites had not ensured that sensitive information maintained on mobile devices was
      encrypted or they had improperly permitted sensitive unclassified information to be
      transmitted unencrypted through email or to offsite backup storage facilities; had not
      ensured that laptops taken on foreign travel were protected against security threats;
      and, were still working to complete required Privacy Impact Assessments.

      The Department's Cyber Security Incident Management Program (DOE/IG-0787,
      January 2008). Program elements and facility contractors established and operated as
      many as eight independent cyber security intrusion and analysis organizations whose
      missions and functions were partially duplicative and not well coordinated. Sites
      could also choose whether to participate in network monitoring activities performed
      by the organizations. Furthermore, the Department had not adequately addressed
      related issues through policy changes, despite identifying and acknowledging
      weaknesses in its cyber security incident management and response program.

Government Accountability Office Report

      Government-wide Guidance Needed to Assist Agencies in Implementing Cloud
      Computing (GAO-10-855T, July 2010)

      Continued Attention is Needed to Protect Federal Information Systems from Evolving
      Threats (GAO-10-834T, June 2010)

      Key Challenges Need to Be Addressed to Improve Research and Development
      (GAO-10-466, June 2010)

      Federal Guidance Needed to Address Control issues with Implementing Cloud
      Computing (GAO-10-513, May 2010)

      Concerted Response Needed to Resolve Persistent Weaknesses (GAO-10-536T,
      March 2010)

      Update to National Infrastructure Protection Plan Includes Increased Emphasis on
      Risk Management and Resilience (GAO-10-296, March 2010)

      Effort Needed to Consolidate and Secure Internet Connections at Federal Agencies
      (GAO-10-237, March 2010)




Page 16                                                                    Related Reports
Appendix 2 (continued)

     Continued Efforts are Needed to Protect Information Systems for Evolving Threats
     (GAO-10-230T, November 2009)

     Actions Needed to Better Manage, Protect, and Sustain Improvements to Los Alamos
     National Laboratory's Classified Computer Network (GAO-10-28, October 2009)

     Leadership Needed to Strengthen Agency Planning Effort to Protect Federal Cyber
     Assets (GAO-10-148, October 2009)

     Current Cyber Sector-Specific Planning Approach Needs Reassessment (GAO-09-
     969, September 2009)

     Information Security: Agencies Continue to Report Progress, but Need to Mitigate
     Persistent Weaknesses (GAO-09-546, July 2009)

     Federal Information Security Issues (GAO-09-817R, June 2009)

     Cybersecurity: Continued Federal Efforts are Needed to Protect Critical Systems
     and Information (GAO-09-835T, June 2009)

     Information Security: Agencies Make Progress in Implementation of Requirements,
     but Significant Weaknesses Persist (GAO-09-701T, May 2009)

     Information Security: Cyber Threats and Vulnerabilities Place Federal Systems at
     Risk (GAO-09-661T, May 2009)

     National Cybersecurity Strategy: Key Improvements Are Needed to Strengthen the
     Nation's Posture (GAO-09-432T, March 2009)

     Nuclear Security: Los Alamos National Laboratory Faces Challenges In Sustaining
     Physical and Cyber Security Improvements (GAO-08-1180T, September 2008)

     Information Security: Actions Needed to Better Protect Los Alamos National
     Laboratory's Unclassified Computer Network (GAO-08-1001, September 2008)

     Los Alamos National Laboratory: Long-Term Strategies Needed to Improve Security
     and Management Oversight (GAO-08-694, June 2008)

     Information Security: Progress Reported, but Weaknesses at Federal Agencies
     Persist (GAO-08-571T, March 2008)

     Information Security: Although Progress Reported, Federal Agencies Need to
     Resolve Significant Deficiencies (GAO-08-496T, February 2008)

     Information Security: Protecting Personally Identifiable Information (GAO-08-343,
     January 2008)


Page 17                                                               Related Reports
Appendix 3




Page 18      Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
Appendix 3 (continued)




Page 22                  Management Comments
Appendix 3 (continued)




Page 23                  Management Comments
Appendix 3 (continued)




Page 24                  Management Comments
                                                             IG Report No. DOE/IG-0843

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
